                                                          NATIONAL SCIENCE FOUNDATION
                                                           OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                    CLOSEOUT MEMORANDUM

        Case Number: A06110057
                                                                                         Il             Page 1 of 1



                 Based on an allegation received by our office, we decided to review two additional awards' with
                 travel funds budgeted. From the institution2,I requested the records (i.e., list of travel
                 transactions and supporting documentation) for all travel expenses incurred by the two awards.

                 According to the institution, the PI^ on one of the awards reallocated the $6,936 in travel funds to
                 support an additional PhD student. The PI provided a signed statement affirming the
                 reallocation.

                 The second award's budget included $6,500 in travel. The institution expended $9,447 in travel.
                  I reviewed all of the documentation provided and determined each expenditure was reasonable
                 and allowable.

                No mismanagement of travel funds appears to have occurred on either of these grants since it was
                not necessary to review travel documents for the first award, and the transactions for the second
                award appear allowable. Accordingly, this case is closed.




--   - . --                                                                               -   -   ---


       NSF OIG Form 2 (1 1/02)
